           AUDIT OF FSS’s
CONTRACTOR ASSESSMENT INITIATIVE (CAsI)
   REPORT NUMBER A040252/F/A/V05002

          Audit Manager’s Letter
           AUDIT OF FSS’s
CONTRACTOR ASSESSMENT INITIATIVE (CAsI)
   REPORT NUMBER A040252/F/A/V05002

           September 29, 2005
                                         AUDIT OF FSS’s
                              CONTRACTOR ASSESSMENT INITIATIVE (CAsI)
                                 REPORT NUMBER A040252/F/A/V05002

                                                   TABLE OF CONTENTS

EXECUTIVE SUMMARY........................................................................................................... i
       Purpose ............................................................................................................................ i
       Background ...................................................................................................................... i
       Results in Brief ................................................................................................................. i
       Recommendations .......................................................................................................... ii
       Management Response .................................................................................................. ii
INTRODUCTION......................................................................................................................1
       Background .....................................................................................................................1
       Objective, Scope, and Methodology................................................................................2
RESULTS OF AUDIT ...............................................................................................................4
       Current Report Card ........................................................................................................4
       Guidance .........................................................................................................................6
       Adherence to Established Guidelines .............................................................................7
       Report Card Availability ...................................................................................................8
       Report Card Usage .........................................................................................................9
       Proposed Revisions to the Report Card - Draft Report Card ..........................................9
       Performance Measures .................................................................................................11
CONCLUSION .......................................................................................................................11
RECOMMENDATIONS ..........................................................................................................12
MANAGEMENT COMMENTS................................................................................................12
INTERNAL CONTROLS.........................................................................................................12
APPENDICES
       Current Report Card .................................................................................................... A-1
       Proposed Revisions - Draft Report Card ..................................................................... B-1
       FSS Response to the Draft Report ............................................................................. C-1
       Report Distribution....................................................................................................... D-1
                                AUDIT OF FSS’s
                     CONTRACTOR ASSESSMENT INITIATIVE (CAsI)
                        REPORT NUMBER A040252/F/A/V05002

                                   EXECUTIVE SUMMARY

Purpose

Our audit addressed whether the U.S. General Services Administration (GSA), Federal
Supply Service’s (FSS’s) Contractor Assessment Initiative (CAsI) is an effective tool to
measure vendor performance in the essential aspects of the contract.

Background

FSS is responsible for the Multiple Award Schedule (MAS) Program. MAS contracts are
indefinite delivery, indefinite quantity contracts that are available for use by federal agencies
worldwide. The Contract Management Center (FXC) within FSS created the Contractor
Assessment Initiative (CAsI) to assist FSS personnel in making decisions about exercising
contract options and awarding additional contracts. There are three components to CAsI: the
Administrative Report Card, the formal customer satisfaction surveys and the informal
customer satisfaction surveys. Currently the Report Card is the only component that has
been implemented.

The Report Card currently has 27 questions addressing numerous contractual and non-
contractual requirements. The Report Card is completed through information gathered by
Industrial Operations Analysts (IOAs) during Contractor Assistance Visits (CAVs) and
through input from the Administrative Contracting Officers (ACOs). The CAV is an
opportunity for the IOA to have face-to-face contact with the contractor to evaluate the
contractor’s performance.

Each year a CAV Plan is developed to assist IOAs in scheduling CAVs with contractors.
Contracts on the CAV Plan are placed into one of four categories (expiring, midterm, new
and zone-determined). Expiring and midterm contracts will receive a Report Card at the end
and midterm points of the contract respectively, however, new contracts will not receive a
Report Card. Contracts newer than 2 years do not have sufficient history to be fairly
evaluated. Visits that are categorized as zone-determined will only receive a Report Card
when deemed appropriate.

The Report Card has gone through several revisions since the inception of the CAsI.
Currently FXC is designing a Draft Report Card, which is scheduled for implementation for
fiscal year (FY) 2006.

Results in Brief

We reviewed the current Report Card content and format to determine if it properly evaluated
contractors. We found that the current Report Card’s format and content affects the reliability
of the contractor performance rating and also does not address several key contractual
issues. During interviews with IOAs and ACOs, we observed problems with the methods
used to complete the Report Card.



                                                i
We also determined that the IOAs and ACOs are not given adequate instructions regarding
the scope of their review and that there is a lack of guidance regarding following-up with
contractors concerning Report Card shortcomings.

During the course of the audit, we examined the availability of the Report Card for PCOs to
use when exercising an option. Our analysis revealed that foreign contractors are not being
held to the same standards as their domestic counterparts. Only a small percentage of
foreign contractors were visited and had a Report Card produced during FY 2004. We also
identified that Report Cards for expiring contracts are not available for the PCO to use when
making an extension determination.

During interviews with PCOs, we determined that some users were unaware of the Report
Card and not using it when deciding whether to exercise an option. This lack of awareness
existed at the two Acquisition Centers with the most sales.

We commend FXC for their effort in creating the Draft Report Card to address issues with the
current Report Card. Modifications were made to the content and format of the current
Report Card to address our concerns. However, we have additional concerns with the Draft
Report Card’s format and content. Specifically with the weighting system, the specific weight
of a question, changes made to a question’s answer selections, missing contractual
requirements and the inclusion of questions not calculated into the final rating.

Although there can be improvements to the current and Draft Report Card’s format and
content, the tool itself is effective in accomplishing the goals set out by FXC. Additional
improvements need to be made to the guidance provided to the IOAs, ACOs and PCOs as
well as to the processes of using and completing the Report Card. These changes will
greatly enhance the value of the CAsI.

Recommendations

We recommend that the Acting Commissioner of the Federal Supply Service:

   1. Review the Report Card content to ensure that all significant contractual areas are
      included on the Report Card.
   2. Integrate a rating and weighting system that fairly evaluates the contractors’
      performance and promotes contractor improvement.
   3. Provide detailed guidance on how to acquire the necessary information for
      formulation of the Report Card and follow-up procedures on contractor deficiencies.
   4. Institute a directive that contracting officers use the Report Card.
   5. Incorporate supervisory oversight to ensure timely and accurate completion of Report
      Cards.
   6. Consider expanding the performance measures to include tracking contractor
      performance improvement and annual percentage increases in the number of Report
      Cards completed with emphasis on expiring contracts.

Management Response

Management generally concurs with the recommendations.




                                              ii
                                      INTRODUCTION

Background

The U.S. General Services Administration (GSA), Federal Supply Service (FSS), is
responsible for the Multiple Award Schedules (MAS) Program. Through the MAS Program,
GSA establishes long-term governmentwide contracts with commercial firms to provide
access to over 6.8 million commercial supplies and services that customer agencies can
order directly from GSA Schedule contractors.

The Office of Acquisition Management (FX) was created in April 2003 to provide centralized
acquisition guidance and support to FSS Business Line customers. The FSS organization
modified their operations, in that; each program office is responsible for the acquisition
function associated with its respective programs. The Contract Management Center (FXC) is
one of the three Centers that comprise the Office of Acquisition Management. FXC has
undertaken the initiative of contractor performance assessment to increase the value of the
MAS program to its customers. This effort is known as the Contractor Assessment Initiative
(CAsI).

As a part of CAsI, contractors are evaluated in four major performance areas: quality, cost,
schedule (timeliness) and business relations. Evaluations are in conformance with
Government-wide requirements of the Office of Federal Procurement Policy. This initiative
assists GSA acquisition activities, specifically; Procuring Contracting Officers (PCOs) and
Contract Specialists in making better-informed decisions about exercising contract options
and awarding additional contracts. MAS contractors will benefit by having their high-quality
performance on record.

The CAsI concept is divided into three components: the administrative compliance analysis
(Contractor Administrative Report Card), formal customer satisfaction surveys and informal
customer satisfaction feedback (Customer Dialogue). The Administrative Report Card was
designed to measure contractor compliance with the administrative requirements of the
contract with the primary audience being FSS personnel. The Report Card was implemented
in fiscal year 2003 and currently addresses 27 specific compliance areas. The Customer
Dialogue component has not been implemented. If and when implemented, it will provide the
Federal community with customer feedback from previous buyers of supplies and services
through the MAS program. The formal survey will include a review of the 20 most recent
Schedule customers of the contractor. An independent firm will survey these customers and
post the results on GSA Advantage! after the contractor has had a chance to review the
surveys. The informal customer satisfaction feedback is intended to collect informal, ad hoc
feedback from MAS customers regarding contractor performance. This information will be
made available to customers in the Federal community for their use in conducting market
research or making best value determinations.

FXC’s top priority, helping contractors succeed, moved forward under the CAsI program.
The overall objective of this program is to improve contractor performance by documenting
contractor performance, highlighting weaknesses, recognizing contractors who provide
outstanding service to the Government and analyzing program-wide trends. The Contractor
Assistance Visit (CAV) is a backbone of Contract Management operations. These contractor
visits provide a face-to-face interaction between FSS Schedule contractors and Industrial




                                              1
Operations Analysts (IOAs). Upon completion of a CAV, the IOA will complete a CAV report
and the information is extracted and included on the Report Card. The Report Card is also
based on the Administrative Contracting Officer’s (ACOs) input. The IOAs and ACOs are
located in one of four Contract Management Divisions (CMDs): Atlanta, Chicago, Boston and
San Francisco.

With close to 17,000 Schedule contracts and limited resources it is impossible to visit each
contractor every year. Therefore, Contract Management develops a specific Fiscal Year Visit
Plan known as the CAV Plan, which supports their core operations and initiative agenda.
Contracts on the CAV Plan are segregated into four categories, i.e., expiring, mid-term, new,
and zone-determined. The CAV for expiring contracts are typically conducted in the first half
of the last year of the contract performance period and the CAV for mid-term contracts is
completed at the mid-point of a contract term. CAVs for new contracts are typically
conducted within six months of contract award but will not result in a Report Card. Contracts
newer than two years do not have sufficient history to be fairly evaluated. Visits categorized
as zone-determined are decided by the Contract Management Center during the fiscal year.

Since inception of the CAsI, the Administrative Report Card has undergone several revisions.
See Appendix A for the Report Card currently used, and Appendix B for the Draft Report
Card. The Draft Report Card is scheduled for implementation for Fiscal Year (FY) 2006 after
FXC has approved it for distribution.

Objective, Scope, and Methodology

Our objectives were to address the following questions:

Is the Report Card component of the Contractor Assessment Initiative an effective tool to
measure vendor performance in the essential aspects of the contract? Is the Report Card
effectively completed and used to measure contractor performance?
     o Does the Report Card adequately evaluate all essential aspects of the contractor
        performance?
     o Does the Report Card meet stakeholders (PCO, contractors and ordering agencies)
        needs for decision-making purposes?
     o Does the Report Card evaluate contractors’ compliance with administrative
        requirements of the contract?

Management requested our office to opine on both the Administrative Report Card and the
Customer Dialogue Component of CAsI. We realize that access to recent performance data
will assist Federal agencies in directing their acquisitions to firms that are providing
exceptional support to the Government. However, we have concerns regarding the
ramifications involved with releasing raw data to customer agencies. We suggest that FXC
work with GSA’s legal counsel to make a determination of the steps necessary to safely
execute this component of CAsI. As such, our review was limited to the Administrative
Report Card.

To accomplish the audit objectives, we reviewed relevant GSA policies and procedures;
applicable Federal Acquisition Regulations (FARs) and Procurement Information Bulletins
(PIBs); the current Administrative Report Card and the Draft Report Card; FSS Acquisition
Letter - Evergreen Contracting for Multiple Award Schedule Contracts; GSA Federal Supply
Service Contract Management Center (FXC) - Business Plan FY 2004; CAsI IOA/ACO Desk



                                              2
Guide, Version 3; Introductory Letter to Contractors, October 15, 2002, Introductory
Brochure, October 2002; Office of Contract Management 2002 Annual Report; Office of
Contract Management July 2002 Quarterly Report, and audit reports issued by the GSA-OIG.
We attained a working knowledge of FSS Online, an information system developed by FSS’s
Office of the Chief Information Officer (FI) for use by various divisions within FSS.

Our review was conducted in the FSS’s Office of Acquisition Management and Office of
Commercial Acquisition. Further we met with IOAs and ACOs from the four CMDs.
Additionally, our review included interviews with PCOs and Contract Specialists in five of the
seven Acquisition Centers. The Acquisition Centers in which these interviews took place
were: the Information Technology Acquisition Center, the Management Services Center, the
General Products Center, the Services Acquisition Center and the National Furniture Center.
While our emphasis was on the Administrative Report Card, we also familiarized ourselves
with the CAV process. The audit was performed between September 2004 and June 2005 in
accordance with generally accepted government auditing standards.




                                              3
                                        RESULTS OF AUDIT

The Report Card is an effectively designed tool to assist FSS contracting personnel in making
sound decisions about exercising contract options and reviewing new proposals from
established Schedule contractors. The Report Card also promotes contractor performance
improvement by conveying to contractors what steps they must take to be successful.
However, our observations disclosed shortcomings that have a direct impact on the usefulness
of the Report Card. Based on the varying completion methods, the Report Card may not yield a
reliable evaluation of contractor’s performance and does not include several essential contract
compliance issues. There is insufficient guidance on the proper methods to complete the
Report Card and a lack of guidance for following-up with the contractors regarding their Report
Card inadequacies. Also affecting the value of CAsI is the lack of Report Card availability and
user awareness of the initiative. Prior to and in conjunction with our review, FXC has identified
and revised some of the Report Card shortcomings; namely, content, format, weighting of
questions, and the rating system. Although these revisions to the Report Card are an
improvement over the current Report Card, the Report Card continues to have formatting
problems and is missing additional administrative contractual requirement questions.
Modifications to the Report Card’s content, format, guidance, and the completion and usage
processes will increase the effectiveness of the CAsI.

Current Report Card

The current Report Card effectively measures vendors’ compliance with the MAS contract.
Nonetheless, modifying its rating methodology, in particularly the rating categories, would
enhance the Report Card’s value. Assigning weights to the questions would add emphasis to
critical items on the Report Card. The current answer selections do not afford the IOA the
opportunity to fully explain extenuating circumstances encountered during the CAV, and adding
three additional topics would strengthen the Report Card’s content.

Current Report Card Format - Rating Methodology

There are both contractual and non-contractual questions on the Report Card. The contractual
questions address both significant and less-important contractual items. Nevertheless, the
current format allows each question to be weighted equally. Conceptually, a contractor could
have contractual deficiencies and receive a successful rating, as would a contractor with
deficiencies in non-contractual areas if the rating is based only on the number of questions
answered correctly. Allowing each question to be weighted the same diminishes the value of
the rating. The following chart demonstrates the rating scale.

                     Rating Categories           Number of questions receiving a
                                                     “Positive Response”1
                        Outstanding                            27
                         Successful                          22-26
                        Unsuccessful                       21 or fewer

Additional rating categories and a weighting system would allow a more precise assessment of
contractor performance and would emphasize the critical contract requirements and identify
contractors with contractual performance shortcomings.

1
 A “yes,” “N/A,” “Not Delegated” response to a Report Card question is considered a “Positive
Response.”

                                                 4
Current Report Card Format – Answer Selection

While reviewing the Report Card, we observed a contractual question that does not have “Not
Applicable”(N/A) as an answer selection. We reviewed thirteen Unsuccessful Report Cards, of
which three contractors receiving a “Negative Response”2 on the “on-time delivery” question
would have been rated successful had the “N/A” option been available. Forcing an IOA to
choose between a “yes” and “no” answer when neither is correct could have an adverse impact
on the overall performance rating. Having accurate answer choices available allows the Report
Card to reflect the true performance of the contractor.

Additionally, in some instances where there is a “N/A” answer choice and/or the question
receives a “no” response, the Report Card does not allow for an explanation beyond the pop-up
window that contains standardized responses provided by the CAV application. The PCO may
not fully understand the circumstances surrounding a “N/A” or “no” response when evaluating
an option, which could lead to an uninformed decision. An explanation for “N/A” and “no”
responses would provide an additional level of detail for the end-user.

Current Report Card Content

During our review, we identified three significant contractual issues that are not included in the
current Report Card:

      o   Basis of Award
      o   Minimum sales requirement
      o   Contractor’s sales tracking and reporting system and complete sales records

      Basis of Award

During our analysis of the Report Card, we ascertained that contractors’ records are not
reviewed to determine if the government is charged the same price as the basis of award
customer or category of customers. Specifically, the General Services Acquisition Manual
(GSAM) 552.238-75 Price Reductions states,

          (a) Before award of a contract, the Contracting Officer and the Offeror will agree
              upon (1) the customer (or category of customers) which will be the basis of
              award, and (2) the Government’s price or discount relationship to the identified
              customer (or category of customers). This relationship shall be maintained
              throughout the contract period. Any change in the Contractor’s commercial
              pricing or discount arrangement applicable to the identified customer (or category
              of customers) which disturbs this relationship shall constitute a price reduction.

Developing a methodology to determine if the relationship between the government and the
basis of award customer or category of customers is maintained will ensure that the contractor
is complying with the Price Reductions Clause.




2
    A “no” response to a Report Card question is considered a “Negative Response.”

                                                    5
   Minimum sales requirements

Another contractual issue not addressed is the minimum sales requirement. Since there are
significant government costs associated with every contract, the contracting officer must review
the sales data and determine whether the amount of the contractor’s sales justify the expense of
exercising the option as well as the continued administration of the contract. Sales below
$25,000 could indicate that the contractor is not marketing the product or service, the contractor
is not reporting all sales, or there is no longer a demand for this product or service. Any or all of
these may indicate that exercising an option is not a sound business decision. Reviewing the
minimum sales data would help the contracting officer determine whether or not it is in the best
interest of the Government to exercise the option under the presence of low sales.

   Contractor’s sales tracking and reporting system and complete sales records

During the CAV, the IOA reviews the contractors’ sales tracking and reporting system to validate
that the contractor is correctly identifying and reporting all MAS sales and remitting the
associated Industrial Funding Fee (IFF) to GSA. Additionally during the CAV, the IOA is
instructed to determine if the contractor’s sales records are complete. Although the adequacy of
the contractor’s sales tracking and reporting system and the completeness of sales records are
reviewed during the CAV, these questions are not included on the Report Card. Including the
results of the review on the Report Card would ensure the contracting officer is aware of a
critical issue concerning the validity of sales reporting and the related IFF payment.

FXC has addressed some of the above concerns with the current Report Card through
proposed revisions in a draft format. We commend FXC for their proposed changes, in
particular, the addition of a weight system as well as additional rating categories. Additionally,
questions have been included on the Draft Report Card to address the minimum sales
requirement issue and the adequacy of the contractor’s sales and tracking system. However,
we observed that the basis of award issue is not on the Draft Report Card. In addition, the
opportunity to explain “N/A” and “no” answers remains unchanged and the proper answer
choices are still not available for the on-time delivery question. Based on our analysis of the
Draft Report Card, we are satisfied with most of the proposed revisions; however, these
revisions and the areas we identified above need to be fully implemented in the next Report
Card to enhance the value of the tool.

Guidance

The Desk Guide is a helpful tool that the IOAs and ACOs rely upon when completing the Report
Card. The Desk Guide’s usefulness would be greater with improvements in the following areas:
(1) past performance review period, (2) definitions and/or instructions for several areas and (3)
follow-up roles and responsibilities.

Desk Guide – reviewing past performance

The Desk Guide instructs ACOs to review the last five years of the contractor’s on-time
performance regarding Multiple Award Schedule Sales Reporting and IFF submission.
Depending on the length of time a contract has been in existence, these instructions may
conflict with the Federal Acquisition Regulation (FAR) requirements regarding past performance
review after the contract completion cut-off. The Federal Acquisition Regulation Subpart
42.1503(e) states,



                                               6
       The past performance information shall not be retained to provide source selection
       information for longer than three years after completion of contract performance.

Since the Report Card is a review of past performance, the IOAs and ACOs must be mindful of
the FAR requirements when completing all Report Card questions. Adding explicit language to
the Desk Guide regarding the appropriate period of review will help reinforce the FAR
requirements.

Desk Guide – vagueness

The Desk Guide lacked instructions and/or definitions as it pertains to various Report Card
questions. The Desk Guide does not recommend sampling techniques to be used when
reviewing the contractors’ performance nor does it clearly define “Excusable delays” for on-time
deliveries and “Promptly and Efficiently” when determining if warranty claims are properly
processed. Additionally, the Desk Guide does not advise IOAs how to determine if contractors
accept purchase cards. Without clear and precise guidelines, each IOA is left to interpret the
instructions. Depending on how the instructions are interpreted, each contractor is subjected to
different criteria depending on the IOA. Providing additional instructions and definitions in the
Desk Guide will allow the IOA to make consistent and objective observations about contractor
performance.

Follow-up Guidance

After interviewing PCOs, IOAs and ACOs we determined that there is no collective guidance
identifying roles and responsibilities for following-up on contractors’ deficiencies identified during
the CAV and reflected on the Report Card. As a result, follow-up on Report Card deficiencies is
minimal. On-going communication with contractors regarding deficiencies will strengthen the
contractors’ performance thus increasing the value of the MAS program to their customers.
Establishing collective guidance will promote consistent follow-up practices nationwide of each
contractor and facilitate contractor improvement.

Adherence to Established Guidelines

During our review of the CAsI Report Card, we observed that the IOAs and ACOs generally
adhere to established guidelines. However, stricter adherence to the guidelines would increase
the reliability of the Report Card rating.

Reviewing proper documents

To determine if the contractor is using the current approved pricelist, the Desk Guide instructs
the IOA to obtain the latest pricelist from the PCO prior to the CAV. However, when we
accompanied six IOAs on CAVs we observed that all six relied on a pricelist provided on site by
the contractor. By relying on the contractor’s pricelist, the IOA may not detect if the prices,
terms and conditions charged to the customer agencies disagree with the approved pricelist.
Obtaining the pricelist, contract and modifications independent of the contractor will ensure the
IOAs are using the most current contract and modifications when evaluating the contractor.

Use of Improper and Illogical Data

During our review we examined twelve contracts in existence for more than five years that
according to the Report Card failed to report sales and IFF payments timely. Fifty-eight percent


                                                7
of those examined were completed using more than the twenty-quarters maximum outlined in
the Desk Guide. When ACOs exceed the five-year guideline, this may result in a conflict with
the FAR Subpart 42.1503(e).

Additionally, we selected 13 contracts that had multiple Report Cards on record and compared
each Report Card in the set to the other Report Cards in the set. Out of the thirteen sets of
Report Cards, there were four sets (thirty percent) in which inconsistencies were found between
the Report Cards. When comparing the Report Cards, we observed four instances where either
illogical data was used to answer the “timely submission of IFF payments and report of sales”
questions or the results disagreed with the prior Report Card. Conflicting results may negate
the value of the Report Card and/or reduce reliance on the document. Periodic supervisory
reviews of the completed Report Cards may improve the quality and reliability of the Report
Card.

IOA Inconsistencies When Completing the Report Card

We accompanied six IOAs on CAVs and conducted extensive interviews with the IOAs following
the CAVs to observe the methodology utilized to complete the Report Card questions.
Variations existed with regard to how they review, test and verify various contract compliance
issues. We are concerned about the lack of a methodology to complete certain Report Card
questions although guidance is given in the Desk Guide. The specific questions address:

   ¾ Determining contractor compliance with the Economic Price Adjustment (EPA) clause
   ¾ Verifying dealers’ sales are made at Schedule prices
IOA practices suggested either a lack of awareness of established practices, a disregard for
established practices, and/or a lack of understanding. Periodic training and refresher sessions
may eliminate any misunderstandings IOAs could have pertaining to methodologies used to
complete the Report Card.

Report Card Availability

We reviewed whether the Report Card was available for use by contractors, PCOs and Contract
Specialists. In FY 2004, most mid-term contracts received Report Cards. Conversely, most
foreign contractors did not receive Report Cards, and many contracts that were close to
expiration did not have a recent Report Card.

Foreign Contractors

During the course of the audit, FXC requested that we examine the degree of risk associated
with not conducting CAVs or completing Report Cards for foreign contractors.

Our analysis showed that as of September 30, 2004, there are 239 foreign contractors of which
34 percent were scheduled for a CAV during FY 2004. Five percent of those scheduled were
visited with two percent receiving a Report Card. We ascertained that 68 percent are located in
Canada. Considering that the majority of the foreign contractors are in Canada, exorbitant costs
should not be a deterring factor. Our primary concern is foreign contractors are not subjected to
the same level of review as the domestic contractors. The CAV and the subsequent issuance of
a Report Card to foreign contractors will hold them to the same standards as their domestic
counterparts. Although there may be additional costs and resources associated with visiting
foreign contractors, it would be beneficial for improving contractor performance and providing an


                                              8
additional tool for the PCO during the option extension process. FXC recognized this to be a
shortcoming, and has taken action by requesting funds in the FY 2006 budget for visits to MAS
foreign contractors.

Scheduled Contractors

After reviewing the CAV Plan, we determined that all expiring contracts on the CAV Plan should
be visited six months to one year prior to the expiration date so the Report Card will be available
to the PCO during the option extension process. As per FSS Acquisition Letter FX-00-3, the
PCOs start their consideration to exercise an option 150 days prior to the contract end date. As
part of our review, we analyzed the 2004 CAV Plan to determine if expiring contracts were being
completed within this designated period.

Of the 1,063 expiring contracts we analyzed, 100 contracts did not have a Report Card on
record and 393 were completed outside the six-month-to-one-year window. Therefore, 46
percent of the expiring contracts did not have a Report Card completed for the period in which
the PCO can make an extension decision. FXC expressed a willingness to accept CAVs and
the subsequent Report Card completed three to fifteen months from the contract expiration
date. We are concerned that this less stringent window will allow the PCO to make a
determination of option extension without the benefit of a current Report Card. To ensure that
current past performance information is readily available to the PCO while making an extension
determination, the Report Card should be completed within a useful timeframe.

Report Card Usage

The majority of PCOs and Contract Specialists we interviewed used the Report Card as an
evaluation instrument when considering whether or not to exercise an option. Nevertheless,
PCOs and Contract Specialists’ utilization did not allow the Report Card to reach its fullest
potential as a contractor assessment tool.

As part of our review, we interviewed PCOs and Contract Specialists from five Acquisition
Centers having the largest amount of Schedule sales for FY 2004 as reported in the 72A sales
database. During our discussions, we established that 36 percent of those interviewed did not
use the Report Card when determining whether to exercise an option. Of those PCOs/Contract
Specialists who did not use the Report Card, 80 percent were unaware of the Report Card. This
lack of awareness was at the two Acquisition Centers with the most sales. In September 2003,
FXC provided CAsI training to the PCOs. The training outlined the objectives of the CAsI,
provided background of the initiative and explained how to retrieve a Report Card from FSS
Online. Additionally, the FSS Acquisition Letter FX-00-3 lists the Report Card as a source of
data for the PCO to use when evaluating a contractor’s performance. Considering the effort
FXC has made to implement this initiative, we have a concern regarding the lack of awareness
at the Acquisition Centers.

Proposed Revisions to the Report Card - Draft Report Card

In the Draft Report Card, FXC has taken steps to address some of our concerns regarding the
Report Card. In spite of these positive measures, we are apprehensive about the Draft Report
Card’s rating criteria and categorization of some its questions.




                                               9
Draft Report Card Rating Criteria

After reviewing the Draft Report Card, we have concerns regarding its rating criteria and
categorization. The Draft Report Card is formatted to include three categories. Within those
categories, there are groups of questions that examine different contractual items. Category 1
items are deemed critical, Category 2 items - mandatory, but not critical, and Category 3
includes non-mandatory items. The rating system is calculated as follows:

   ¾ Exceptional rating - Applicable questions in all three categories must be met.
   ¾ Very Good rating - All questions in Category 1 and 2 must be met.
   ¾ Satisfactory rating - All Category 1 questions and missing one Category 2 item.
   ¾ Marginal rating - All Category 1 questions and missing two Category 2 items.
   ¾ Unsatisfactory rating - Failure to meet any one question in Category 1 or three or more
       in Category 2.

Although the rating system was modified to include five ratings, we are concerned that the
criteria for an exceptional rating are too rigid. In this proposed environment, contractors would
have to receive a “yes” answer to all questions on the Report Card in all three categories to
receive an exceptional rating. Although Category 3 items are non-mandatory, they enhance the
performance of contractors. With the current structure, the contractor is facing an all or nothing
scenario that may be discouraging to the contractor. Giving credit for these non-mandatory
areas may encourage contractors to strive for excellence.

Also, the Draft Report Card question regarding “scope” limits the IOA to a “yes” or “no” without
an option to select “N/A”. Depending on the circumstances, a “yes” or “no” answer may not
accurately reflect the contractor’s performance. Including the “N/A” option would allow the IOA
to properly answer the question for a contractor with zero sales.

Draft Report Card Categorization

The Draft Report Card is formatted such that Category 1 questions have the most weight, while
Category 3 questions are weighted the least. The Draft Report Card incorrectly categorizes a
question, which directly impacts the weight of the question. The question addresses the
minimum sales requirement, which states that contracts with less than $25,000 in annual sales
are subject to cancellation. This question is currently included in Category 2; however, we
consider this a critical contractual requirement since a contract can be canceled based on a low
level of annual sales. Re-categorizing the question to Category 1 would give the question more
weight.

Another concern we have with the Draft Report Card is the inclusion of questions that are
contingent upon the answer to another question. The question concerning the contractor’s
sales tracking system has three parts. The first part questions the existence of a system that
identifies, tracks and reports GSA sales accurately and completely. Based on the answer to this
question, two more follow-up questions, which are not calculated in the rating determination, are
asked. These questions include whether contractor sales records match GSA reported sales
and whether dealer sales are being collected in the contractor’s system. This format precludes
all contractors from being subjected to the same questions. Based on our review of the
questions, we consider each question valuable and should therefore be asked separately.


                                              10
Thus, each contractor will be asked the same questions regardless of the answer to other
questions.

Performance Measures

FXCs FY 2005 Performance Measures included one measure directly related to the Report
Card - the number of Report Cards completed. However, the Performance Measures would be
more relevant if they also tracked contractor improvement and the percentage of Report Cards
completed in the critical expiring category. According to management, although FXC does not
complete Reports Cards, the support that FXC provides to IOAs and ACOs (e.g., training,
technical, administrative support, etc.) has an impact on the number of Reports Cards
completed. The number of Report Cards completed during the prior FY becomes the target for
the next year. However, since additional questions were added to the Report Card in
September 2004, FXC anticipated the CAVs taking longer to complete and having a direct
impact on the number of Report Cards that will be completed during FY 2005. Hence, the FY
2005 target of 3,877 Reports Cards is lower than the 4,322 Report Cards completed in FY 2004.
In addition to the number of Report Cards completed, tracking and measuring contractor
improvement or declination would give more attention to the CAsI mission, i.e., improve
contractor performance which directly impacts the value of the MAS Program.

In addition to measuring the total number of Report Cards completed, we believe it would be
beneficial to measure the number of Report Cards completed by the CAV Plan categories, i.e.,
expiring, mid-term, new, and zone-determined. During FY 04, Report Cards were completed for
71 percent of the mid-term contracts. We commend the IOAs and ACOs for completing such a
large percentage of mid-term reviews. However, 46 percent of the expiring contracts did not
have a Report Card completed for the period in which the PCO can make an extension
decision. For this reason, we would like to see the CMDs performance measures include an
annual percentage increase in the number of Report Cards completed with emphasis on
expiring contracts.
CONCLUSION

We commend Contract Management on the development of the Contract Assessment Initiative.
It is an innovative approach to evaluating contractor performance in the essential aspects of the
contract. Specifically, the CAsI Report Card in and of itself is an effective tool to accomplish the
mission of CAsI. It provides a concise assessment for contracting officers to use when
exercising contract options and awarding additional contracts as well as providing contractors
critical feedback to improve performance.

However, we have concerns about the Report Card fully meeting management’s expectations of
assisting GSA acquisition activities. Specifically for PCOs and Contract Specialists in making
better-informed decisions about exercising contract options and as a contractor performance
assessment to increase the value of the MAS program to its customers. The current Report
Card does not include a number of critical contractual areas and the weighting does not
differentiate between mandatory and non-mandatory contractual issues. The format does not
always allow for proper answer choices, which forces the selection of an incorrect answer that
could have an adverse impact on the contractor rating. Additionally, the proposed revisions
have very stringent rating criteria that could discourage a contractor from trying to achieve an
exceptional rating.

Also, the CAsI IOA/ACO Desk Guide should provide additional instructions regarding how to
acquire the necessary information for formulation of the Report Card. When the Desk Guide


                                               11
provides adequate guidance, some of the IOAs do not adhere to it, consequently contractors
are not always measured by the same criteria. We observed that follow-up on contractor
deficiencies identified in the Report Card is minimal. In many instances, a current Report Card is
not available to contracting officers to use for consideration options and future awards. Finally,
when a Report Card is available, its usage by contracting officers is random. The Report Card
effectiveness would be greatly enhanced with improvements to its content, format, guidance,
usage practices, and completion processes.

Lastly, performance measures can be intensified to ensure that resources are appropriately
allocated based on CAV Plan priorities.

RECOMMENDATIONS

We recommend that the Acting Commissioner of the Federal Supply Service:

   1. Review the Report Card content to ensure that all significant contractual areas are
      included on the Report Card.

   2. Integrate a rating and weighting system that fairly evaluates the contractors’
      performance and promotes contractor improvement.

   3. Provide detailed guidance on how to acquire the necessary information for formulation of
      the Report Card and follow-up procedures on contractor deficiencies.

   4. Institute a directive that contracting officers use the Report Card.

   5. Incorporate supervisory oversight to ensure timely and accurate completion of Report
      Cards.

   6. Consider expanding the performance measures to include tracking contractor
      performance improvement and annual percentage increases in the number of Report
      Cards completed with emphasis on expiring contracts.

MANAGEMENT COMMENTS

Management generally concurs with the recommendations. See Appendix C for management’s
detailed response.

INTERNAL CONTROLS

As discussed in the Objectives, Scope, and Methodology section of this report, our audit
objective focused on determining the effectiveness of the CAsI Report Card. Accordingly, our
scope was confined to reviewing data related to the processes and procedures used to measure
contractor performance. We also reviewed the controls pertaining to the completion and usage
of the Report Card. As discussed in the report, the internal controls over these processes
should be strengthened.




                                              12
APPENDICES
                                   AUDIT OF FSS’s
                        CONTRACTOR ASSESSMENT INITIATIVE (CASI)
                           REPORT NUMBER A040252/F/A/V05002

                                         Current Report Card3




3
 The Office of Audits created this replica to duplicate the original Report Card, as we were unable to
obtain an electronic copy.
                                                   A -1
                                                     AUDIT OF FSS’s
                                          CONTRACTOR ASSESSMENT INITIATIVE (CASI)
                                             REPORT NUMBER A040252/F/A/V05002

                                                Proposed Revisions - Draft Report Card



                                                                                                                                                 Answer
CAsI                                         Contractor Assessment Initiative Report Card                                                       Selection
No.                                                                                                                                              Options
                                                                         Category 1
 1     Did the contractor demonstrate compliance with the scope of their contract?                                                                Yes/No
 2     Did the contractor demonstrate compliance with the Trade Agreements Act?                                                                 Yes/No/NA
 3     Is the pricelist being used by the contractor the current approved pricelist?                                                              Yes/No
 4     Does the contractor have a system in place that identifies, tracks and reports GSA sales accurately and completely?                        Yes/No
 5     Did the contractor charge customers the contract price or lower?                                                                           Yes/No
       Do contractor sales records match GSA reported sales?                                                                                      Yes/No
       If there are dealers, are dealer sales being collected in the contractor's system and included in the 72A report?                        Yes/No/NA

       The above items are deemed critical. Failure to meet any one (1) of these items will result in an UNSATISFACTORY rating.
                                                                         Category 2
 6     Since the issuance of the last report card, are the contractor's Reports of Sales on time?                                                 Yes/No
 7     Since the issuance of the last report card, has the contractor remitted the Industrial Funding Fee on time?                                Yes/No
 8     Is the contractor up-to-date on GSA Advantage!?                                                                                            Yes/No
 9     Is the contractor delivering timely based upon a sampling of orders?                                                                       Yes/No
 10    Is the contractor honoring warranty terms of the contract?                                                                               Yes/No/CNC
 11    Is the contractor capable of accepting the Governmentwide Commercial Purchase card?                                                      Yes/No/NA
 12    Is the contractor's records location and administrative representative information correct? (e.g., address, phone, fax, e-mail, etc.)     Yes/No

       If a Commercial or Individual Subcontracting Plan is required, did the contractor meet the goals specified in the plan or is the         Yes/No/Not
 13    contractor progressing toward meeting the goals specified in the plan?                                                                   Delegated
       Since the beginning of the contract or since the issuance of the last report card (whichever is later), is the contractor free of
 14    claims?                                                                                                                                    Yes/No
       Since the beginning of the contract or since the issuance of the last report card (whichever is later), is the contractor free of cure
 15    notices?                                                                                                                                   Yes/No
 16    Is the contractor complying with the Economic Price Adjustment clause of the contract?                                                   Yes/No/NA
 17    If there are participating dealers, are the dealers listed and current in the contract pricelist and GSA Advantage!?                     Yes/No/NA
 18    Is the contractor maintaining minimum contract sales of more than $25,000 for the latest 12 month period?                                 Yes/No
       Items in Category 2 are mandatory, but not critical. All items in the above two (2) sections must be met to receive a VERY
       GOOD rating. If all Category 1 items are met: failure in any one (1) item from this section will result in a SATISFACTORY rating;
       failure to meet two (2) items in Category 2 will result in a MARGINAL rating; and failure to meet three (3) of these items will
       result in an UNSATISFACTORY rating.
                                                                         Category 3
 19    Is the contractor being proactive in proposing to add and delete items from the contract?                                                Yes/No/NA
 20    Does the contractor accept credit cards over the micro-purchase threshold?                                                                Yes/No
 21    Is the contractor using all applicable e-contracting tools (e.g., e-Offer, e-Mod, Quick Mod, electronic reporting and payment)?           Yes/No
 22    Does the contractor offer second tier pricing discounts on blanket purchase agreements issued against this contract?                     Yes/No/NA
       If there are contractor teaming arrangements, do these arrangements address how customer service and warranty issues will be
 23    resolved?                                                                                                                                Yes/No/NA
 24    Has the contractor complied with Change of Name and/or Novation Agreement requirements?                                                  Yes/No/NA
 25    Is the contractor free from bankruptcy proceedings?                                                                                        Yes/No

       EXCEPTIONAL rating: All applicable items from each of the three sections must be met.




                                                                            B -1
           AUDIT OF FSS’s
CONTRACTOR ASSESSMENT INITIATIVE (CASI)
   REPORT NUMBER A040252/F/A/V05002

     FSS Response to the Draft Report




                   C -1
           AUDIT OF FSS’s
CONTRACTOR ASSESSMENT INITIATIVE (CASI)
   REPORT NUMBER A040252/F/A/V05002

     FSS Response to the Draft Report




                   C -2
           AUDIT OF FSS’s
CONTRACTOR ASSESSMENT INITIATIVE (CASI)
   REPORT NUMBER A040252/F/A/V05002

     FSS Response to the Draft Report




                   C -3
           AUDIT OF FSS’s
CONTRACTOR ASSESSMENT INITIATIVE (CASI)
   REPORT NUMBER A040252/F/A/V05002

     FSS Response to the Draft Report




                   C -4
           AUDIT OF FSS’s
CONTRACTOR ASSESSMENT INITIATIVE (CASI)
   REPORT NUMBER A040252/F/A/V05002

     FSS Response to the Draft Report




                   C -5
                                        AUDIT OF FSS’s
                             CONTRACTOR ASSESSMENT INITIATIVE (CASI)
                                REPORT NUMBER A040252/F/A/V05002

                                                  Report Distribution
                                                                                                             Copies


Acting Commissioner, Federal Supply Service (F) ........................................................... 3

Audit Follow-up and Evaluation Branch (BECA)............................................................... 1

Assistant Inspector General for Auditing (JA, JAO) .......................................................... 2

Assistant Inspector General for Investigations (JI) .......................................................... 1

Office of the Chief Financial Officer (B) ........................................................................... 2




                                                             D -1
